September 30, 2002

SUZANNE F. MEDVIDOVICH
SENIOR VICE PRESIDENT, HUMAN RESOURCES

DEWITT O. HARRIS
VICE PRESIDENT, EMPLOYEE RESOURCE MANAGEMENT

DANNY C. JACKSON
VICE PRESIDENT, GREAT LAKES AREA OPERATIONS

SUBJECT: 	 Audit Report – Associate Supervisor Program in the
           Great Lakes Area (Report Number LH-AR-02-005)

This report presents the results of our review of the Associate Supervisor Program
(Project Number 01JA004LB000). This audit was self-initiated and conducted in the
seven districts of the Great Lakes Area.

The audit revealed that while the Postal Service in the Great Lakes Area was successful
in training over 900 employees through the Associate Supervisor Program as of
June 2001, program performance had not been fully assessed to determine its impact
on labor-management relations and Postal Service operations. Specifically, we found
that procedures for screening applications and selecting program candidates were
adequate, however, they were not always followed. In addition, while eligibility
requirements were applied to all applicants, the requirements used to determine
program suitability were not equitably applied to all applicants. Also, Great Lakes Area
management had not maximized the benefits of the Associate Supervisor Program by
determining the appropriate number of executive and administrative schedule level
15 positions needed; and by placing graduates, when and where they were needed.
We also were unable to determine the cost of the Associate Supervisor Program
because Postal Service management did not have a budget nor did they track
expenditures for the program. Finally, we found that oversight had not been provided to
ensure the program was implemented efficiently, effectively, and properly.

The report included nine recommendations to help Postal Service management improve
the Associate Supervisor Program. Management agreed with 7 of the 9 findings and
recommendations, and the actions taken and planned should correct the issues
identified in this report. Management disagreed, however, with our recommendations to
assess the impact of the Associate Supervisor Program on improving labor­
management relations and Postal Service operations, and to establish a budget and
cost center to capture the Associate Supervisor Program expenditures Postal
Service-wide. The Office of Inspector General (OIG) considers recommendations 1 and
8, as unresolved and plans to pursue them through the formal audit resolution process.
Management’s comments and our evaluation of these comments are included in this
report.

The OIG considers recommendations 1, 2, 3, 7, 8, and 9 significant and, therefore,
requires OIG concurrence before closure. Consequently, the OIG requests written
confirmation when corrective actions are completed. These recommendations should
not be closed in the follow-up tracking system until the OIG provides written
confirmation that the recommendations can be closed. We appreciate the cooperation
and courtesies provided by your staff during the audit. If you have any questions or
need additional information, please contact Chris Nicoloff, director, Labor Management,
at (214) 775-9100, or me at (703) 248-2300.



B. Wayne Goleski
Assistant Inspector General
 for Core Operations

Attachment

cc: Susan M. Duchek
Associate Supervisor Program                                      LH-AR-02-005
 in the Great Lakes Area


                                  TABLE OF CONTENTS

 Executive Summary                                                 i

 Part I

 Introduction                                                      1

    Background                                                     1

    Objective, Scope, and Methodology                              2

    Prior Audit Coverage                                           2


 Part II

 Audit Results                                                     4


    Management and Oversight of Program Needs Improvement          4

      Program Impact Not Fully Assessed                            4

      Recommendation                                               5

      Management’s Comments                                        6

      Evaluation of Management’s Comments                          7


           Candidate Selection Procedures Not Followed             7

           Recommendations                                         9

           Management’s Comments                                   9

           Evaluation of Management’s Comments                     9


           Eligibility Requirements Applied to All, Suitability   10

            Requirements Were Not

           Recommendation                                         11

           Management’s Comments                                  11

           Evaluation of Management’s Comments                    12


           Placement of Graduates Not Maximized                   12

           Corrective Actions Taken                               13

           Recommendation                                         14

           Management’s Comments                                  14

           Evaluation of Management’s Comments                    14


           Program Cost Not Determined                            14

           Recommendation                                         15

           Management’s Comments                                  15

           Evaluation of Management’s Comments                    15





                                        Restricted Information
Associate Supervisor Program                                              LH-AR-02-005
 in the Great Lakes Area


        Program Oversight Improvements Needed
                            16

        Recommendation
                                                   17

        Management’s Comments
                                            17

        Evaluation of Management’s Comments
                              18

 Appendix A. Scope and Methodology
                                       19

 Appendix B. Comparison of the Number of Executive and 
                  21

             Administrative Schedule Level 15 Authorized Positions to 

             the Number of Associate Supervisor Graduates as of 

             June 2001

 Appendix C. Comparison of Nongraduate and Graduate Promotions to         22

             Executive and Administrative Schedule Level 16 Positions

             December 1996 Through June 2001

 Appendix D. Management’s Comments                                        23





                                 Restricted Information
Associate Supervisor Program                                                        LH-AR-02-005
 in the Great Lakes Area


                                 EXECUTIVE SUMMARY
 Introduction                  This report presents the results of our self-initiated audit of
                               the Postal Service’s management of the Associate
                               Supervisor Program in the Great Lakes Area. The program
                               was established in response to a recommendation made by
                               the General Accounting Office in September 1994, “that the
                               Service select and train supervisors who could serve as
                               facilitators/counselors and who would have the skills,
                               experience, and interest to treat employees with respect
                               and dignity, positively motivate employees, recognize and
                               reward them for good work, promote teamwork, and deal
                               effectively with poor performers.”

 Results in Brief              The audit revealed that as of June 2001 the Great Lakes
                               Area trained over 900 employees through the Associate
                               Supervisor Program. We also found that some
                               assessments of program performance had been done; and
                               that the procedures for screening applications to the
                               program were adequate. In addition, we determined that
                               program eligibility requirements were objective.

                               We determined, however, that program performance had
                               not been fully assessed to determine its impact on labor­
                               management relations and Postal Service operations. In
                               addition, we found that improvements or full implementation
                               of procedures were needed in the areas of applicant
                               screening and candidate selection, suitability requirements,
                               placement of graduates, budgeting and tracking of costs,
                               and program oversight.

                               During the course of our audit, Postal Service management
                               took several actions to correct some of the conditions we
                               found in the area of graduate placement. We believe further
                               corrective actions will help the Postal Service to meet the
                               program’s primary objective to improve labor-management
                               relations and Postal Service operations. In addition,
                               improvements to the program will help the Postal Service
                               attract, select, and train applicants who best meet the
                               requirements of the associate supervisor position.

 Summary of                    We made nine recommendations to Postal Service
 Recommendations               management to improve the Associate Supervisor Program.
                               Recommendations include an assessment of the impact
                               the program has had on improving labor-management
                               relations and Postal Service operations, additional program

                                                  i
                                       Restricted Information
Associate Supervisor Program                                                     LH-AR-02-005
 in the Great Lakes Area


                               oversight, and a reassessment of the suitability
                               requirements to ensure they are consistently and equally
                               applied to all applicants. We also recommended
                               improvements to the screening and selection process, the
                               placement of graduates, and the establishment of a budget
                               and cost center to capture program expenditures, Postal
                               Service-wide.

 Summary of                    Management agreed with our recommendations to ensure
 Management’s                  review committee members and district coordinators receive
 Comments                      appropriate training to increase their knowledge/awareness
                               of program responsibilities and that district coordinators
                               were implementing oversight controls of program activities.
                               They also agreed to determine the cause for high turnover
                               in the district coordinator position and assess the workload
                               of district coordinators. Management further agreed to
                               reassess the suitability requirements in the Associate
                               Supervisor Program Guide and the Employee and Labor
                               Handbook, and ensure that the manuals were in alignment
                               with one another. They also agreed to ensure that the
                               appropriate number of executive and administrative level 15
                               and 16 positions were determined using Organizational
                               Management Staffing System reports. In addition,
                               management’s comments clarified their agreement that the
                               area office must have a certain level of oversight
                               responsibility for the district programs.

                               Management disagreed, however, with our
                               recommendations to assess the impact of the Associate
                               Supervisor Program on improving labor-management
                               relations and Postal Service operations, and to establish a
                               budget and cost center to capture the Associate Supervisor
                               Program expenditures, Postal Service-wide. Management’s
                               comments, in their entirety, are included in Appendix D of
                               this report.

 Overall Evaluation of         Management’s comments to recommendations 2 through 7,
 Management’s                  and 9 were responsive and the actions taken and planned
 Comments                      should correct the issues identified in this report.
                               Management’s response to recommendations 1 and 8 were
                               not responsive and did not meet the full intent of our
                               recommendations to assess the impact of the Associate
                               Supervisor Program on labor-management relations; and
                               establish a budget and cost center to capture the Associate
                               Supervisor Program expenditures Postal Service-wide,
                               respectively. The Office of Inspector General considers

                                                  ii
                                       Restricted Information
Associate Supervisor Program                                                 LH-AR-02-005
 in the Great Lakes Area


                               recommendations 1 and 8 unresolved and plans to pursue
                               them through the formal audit resolution process.




                                                iii
                                      Restricted Information
Associate Supervisor Program                                                                        LH-AR-02-005
 in the Great Lakes Area


                                       INTRODUCTION
    Background                    In a 1994 General Accounting Office (GAO) report,1 the
                                  Postal Service’s corporate culture was characterized as a
                                  highly structured system of work rules and highly autocratic
                                  management styles. The GAO report disclosed the
                                  presence of policies, practices, and values that needed to
                                  be changed in an effort to encourage, facilitate, and reward
                                  more productive labor-management relations at the Postal
                                  Service. To address this condition, the GAO recommended
                                  that the Postal Service select and train supervisors who
                                  could serve as facilitators/counselors, and who would have
                                  the skills, experience, and interest to:

                                       •     Treat employees with respect and dignity.
                                       •     Positively motivate employees.
                                       •     Recognize and reward employees for good work.
                                       •     Promote teamwork.
                                       •     Deal effectively with poor performers.

                                  In response to this recommendation, the Postal Service
                                  established the Associate Supervisor Program in 1995 to
                                  develop qualified applicants for initial level supervisory
                                  vacancies and to ensure that prospective supervisors were
                                  provided with the technical, administrative, and leadership
                                  skills necessary to be effective in all aspects of a first line
                                  supervisory job. The overall goal of the program was to
                                  help the Postal Service improve labor-management
                                  relations and Postal Service operations.2

                                  The Associate Supervisor Program was comprised of a
                                  comprehensive selection process followed by an in-depth
                                  16-week training program. Trained coordinators monitored
                                  the program from start to finish and worked closely with
                                  district human resources personnel to administer it.
                                  Applicants were selected based on their ability to meet
                                  critical job requirements, as demonstrated through an
                                  examination, a review of applications, and structured
                                  interviews. At the conclusion of the program, graduates
                                  were placed directly into an associate supervisor position,
                                  executive and administrative schedule level 15, within
                                  customer services or distribution operations. Opportunities

1
  U.S. Postal Service: Labor–Management Problems Persist on the Workroom Floor (GAO/GGD-94-201A,
September 1994).
2
  The term Postal Service operations as used here means the reduction in overtime costs and wages paid to
temporary supervisors referred to as 204B supervisors.

                                                      1
                                           Restricted Information
Associate Supervisor Program                                                                      LH-AR-02-005
 in the Great Lakes Area


                                  also existed for graduates to be promoted to the executive
                                  and administrative schedule level 16 supervisor positions.

                                  As of September 2001, more than 10,000 employees had
                                  graduated from the Associate Supervisor Program Postal
                                  Service-wide. Approximately 57.9 percent of the graduates
                                  (5,849) were promoted to the level 16, supervisor position,
                                  and 29.4 percent (2,968) were in associate supervisor, level
                                  15 positions. Another 6.3 percent (637) of the graduates
                                  went back to a craft position, and the remaining 6.4 percent
                                  (651) left the Postal Service.

    Objective, Scope, and         Our overall objective was to determine whether the Postal
    Methodology                   Service was effectively managing the Associate Supervisor
                                  Program in the Great Lakes Area. We judgmentally
                                  selected the Great Lakes Area after completion of our
                                  survey work in one of its seven districts3 (Chicago). To
                                  accomplish our objective we assessed program
                                  administration, as well as the applicant screening and
                                  candidate selection process, and graduate placement. We
                                  also attempted to determine the program costs. Our scope
                                  and methodology are discussed in Appendix A.

                                  This audit was conducted from April 2001 through
                                  September 2002 in accordance with generally accepted
                                  government auditing standards and included such tests of
                                  internal controls as were considered necessary under the
                                  circumstances. Specifically, we reviewed controls designed
                                  to identify the applicants best suited for the Associate
                                  Supervisor Program, as well as the controls in place to
                                  monitor and track program costs. We discussed our
                                  conclusions and observations with appropriate management
                                  officials and included their comments, where appropriate.

    Prior Audit Coverage          U.S Postal Service: Labor-Management Problems
                                  Persist on the Workroom Floor, (GAO/GGD-94-201A,
                                  September 1994). This report showed the labor­
                                  management conflict that existed on the workroom floor of
                                  mail processing and delivery operations; and past and
                                  current efforts by the Postal Service, employee unions, and
                                  management associations to improve relations and end the
                                  conflict. The GAO reported the presence of policies,
                                  practices, and values that needed to be changed in an effort
                                  to encourage, facilitate, and reward more productive
3
 The Postal Service geographic areas of operation were restructured in September 2001, and the number
of districts in the Great Lakes Area was increased from seven to nine districts.

                                                   2
                                        Restricted Information
Associate Supervisor Program                                                      LH-AR-02-005
 in the Great Lakes Area


                               relations at the Postal Service. To address this condition,
                               the GAO recommended that the Postal Service select and
                               train supervisors who could serve as facilitators/counselors,
                               and who would have the skills, experience, and interest to
                               improve labor-management relations and facility operations.

                               U.S. Postal Service: Little Progress Made in Addressing
                               Persistent Labor-Management Problems (GAO/GGD-98-1,
                               October 1997). This report followed up on the Postal
                               Service’s response to the recommendations made in the
                               GAO’s 1994 report. The report found that little progress had
                               been made in improving the persistent labor-management
                               problems. As a result of the 1994 report, the Postal Service
                               reported to the GAO that one of its initiatives was the
                               establishment of the Associate Supervisor Program. The
                               GAO did not evaluate the program at that time because of
                               its recent implementation in 1995. No recommendations
                               were made in this report.




                                              3
                                   Restricted Information
Associate Supervisor Program                                                                    LH-AR-02-005
 in the Great Lakes Area


                                      AUDIT RESULTS
    Management and       The audit revealed that while the Postal Service in the Great
    Oversight of Program Lakes Area was successful in training over 900 employees
    Needs Improvement    as of June 2001, through the Associate Supervisor Program,
                         the program had not been fully assessed to determine its
                         impact on labor-management relations and Postal Service
                         operations. In addition, we identified the following program
                         areas in need of improvement:

                                     •    Screening and selection process
                                     •    Suitability requirements
                                     •    Placement of graduates
                                     •    Budgeting and tracking costs
                                     •    Oversight

    Program Impact Not           While headquarters had taken some steps to assess the
    Fully Assessed               program’s effectiveness, neither headquarters nor Great
                                 Lakes Area management had fully assessed the impact of
                                 the Associate Supervisor Program on labor-management
                                 relations and Postal Service operations. With regard to
                                 assessment steps taken, we found that in fiscal year
                                 (FY) 2001, the headquarters, Human Resources office
                                 contracted with a vendor to conduct a mail survey of
                                 managers and Associate Supervisor Program graduates that
                                 included an assessment of new associate supervisors’ skills.
                                 As a result of the survey, the vendor reported that over
                                 70 percent of the graduates met or exceeded the managers’
                                 expectations for beginning supervisors. In addition, to
                                 determine if the program was providing a sufficient number
                                 of graduates to meet the needs of the organization, program
                                 officials tracked the progress of participants in the program
                                 to determine how many successfully completed the program
                                 and where the graduates were ultimately placed.

                                 In response to a 1997 GAO report4 on the continued
                                 existence of labor-management problems, Postal Service
                                 management committed to additional assessment
                                 measures, however, they did not follow through on those
                                 commitments. Specifically, the Postal Service advised GAO
                                 of plans to evaluate the Associate Supervisor Program by
                                 surveying managers to determine the quality of job
                                 performance for associate supervisors compared to
                                 supervisors who had not participated in the program. The
4
 U.S. Postal Service: Little Progress Made in Addressing Persistent Labor-Management Problems
(GAO/GGD-98-1, October 1997).

                                                    4
                                         Restricted Information
Associate Supervisor Program                                                                         LH-AR-02-005
 in the Great Lakes Area


                                  Postal Service had also planned to ask managers to
                                  evaluate associate supervisors’ communication and
                                  leadership skills as well as their ability to promote and
                                  maintain a safe working environment for employees. To
                                  determine the impact the Associate Supervisor Program has
                                  had on the overall performance of facilities, the Postal
                                  Service also advised the GAO it planned to compare
                                  External First-Class Measurement System scores5 before
                                  and after the placement of associate supervisors in facilities.

                                  Associate Supervisor Program officials in headquarters told
                                  us they were not aware of the Postal Service’s commitment
                                  to evaluate the Associate Supervisor Program as reported in
                                  GAO’s 1997 report.

                                  We believe the Postal Service should follow through with its
                                  plans as outlined in their response to GAO. Also, to fully
                                  assess the impact of the Associate Supervisor Program, we
                                  believe that an assessment of workplace climate indicators6
                                  should be included in this evaluation. The Postal Service’s
                                  Threat Assessment Team Guide, Publication 108, defines
                                  these indicators and their relevance when making
                                  determinations on workplace climate. Using information
                                  from these evaluations, Postal Service officials should be
                                  able to better assess whether the program has achieved its
                                  objective to positively impact labor-management relations
                                  and Postal Service operations.

    Recommendation	               We recommend the senior vice president, Human
                                  Resources:

                                       1.	 Assess the impact of the Associate Supervisor
                                           Program on improving labor-management relations
                                           and Postal Service operations. This assessment
                                           should include:




5
  External First-Class Measurement is an external measurement system of collection box to mailbox delivery
performance. It is not a system-wide measurement of all First-Class Mail performance; instead it
continuously tests a panel of 465 ZIP Code areas selected on the basis of geographic and volume density
from which 90 percent of First-Class volume originates and 80 percent destinates.
6
  Among these indicators are grievances, Equal Employment Opportunity complaints, referrals to the
Employee Assistance Program, and Voice of the Employee surveys.

                                                    5
                                         Restricted Information
Associate Supervisor Program                                                      LH-AR-02-005
 in the Great Lakes Area



                                      •	 A survey of managers to compare the quality of
                                         job performance of associate supervisors to
                                         supervisors who had not participated in the
                                         program.

                                      •	 An evaluation of associate supervisors’
                                         communication and leadership skills as well as
                                         their ability to promote and maintain a safe
                                         working environment for employees.

                                      •	 A comparison of facility performance scores and
                                         workplace climate indicators before and after the
                                         placement of associate supervisors.

 Management’s                  Management disagreed with the finding and
 Comments                      recommendation and stated the recommendation was based
                               on the belief that the primary objective of the Associate
                               Supervisor Program was to improve labor-management
                               relations. They stated that the primary objective was to
                               attract, select, and train the best possible candidates for
                               first-line supervisory positions; and that the expected
                               benefits, among other things, included a safer work
                               environment and improved labor-management relations and
                               Postal Service operations. They said the report misstated
                               the program’s objective and requested that we change it.

                               Management also stated the improved labor-management
                               relations was only one component of the program and there
                               were many variables that could impact the workplace
                               climate. They said the labor-management component could
                               not be used to adequately assess a change in that climate.
                               Management further stated that in June 2000 they surveyed
                               Associate Supervisor Program participants and their
                               managers; and more recently (April 4, 2002) implemented
                               the Universal Associate Supervisor Program that would fill
                               all supervisor vacancies thus discontinuing the initial level
                               supervisor system. They said that due to these events it
                               was not necessary to compare associate supervisors to
                               supervisors who have not participated in the program.

                               Management also stated they will continue their efforts to
                               work with field Human Resources and Operations to
                               improve the Associate Supervisor Program and identify
                               future enhancements to the program.


                                               6
                                    Restricted Information
Associate Supervisor Program                                                                          LH-AR-02-005
 in the Great Lakes Area




    Evaluation of                  Management’s planned actions are not responsive and do
    Management’s                   not meet the intent of our recommendation. As stated in our
    Comments                       report, the Postal Service’s development of the program was
                                   a direct result of the 1994 GAO recommendation to improve
                                   labor-management relations and Postal Service operations.
                                   We believe the objective to attract, select, and train the best
                                   possible candidates for first line supervisory positions, was a
                                   means to achieve program benefits (goal) of improving
                                   labor-management relations and operations.

                                   We disagree that because many variables can impact
                                   labor-management relations that an assessment cannot be
                                   done to determine the impact the program had on improving
                                   labor-management relations. We also disagree that it is not
                                   necessary to compare associate supervisors to supervisors
                                   who have not participated in the program. As stated in the
                                   report, an assessment is necessary to determine whether
                                   the program has achieved its goal to positively impact
                                   labor management relations. Also stated is that a significant
                                   amount of resources have been expended on this program
                                   without a proper and accurate accounting. Given the Postal
                                   Service’s continued need to identify cost savings,
                                   management should make the effort to quantify the benefits
                                   of the program and to determine whether it is worth the
                                   continued investment of resources. The Office of Inspector
                                   General (OIG) considers this recommendation unresolved
                                   and plans to pursue it through the formal audit resolution
                                   process.

    Candidate Selection            The procedures for screening Associate Supervisor Program
    Procedures Not                 applications and selecting program candidates,7 by review
    Followed                       committees8 and district coordinators, were adequate;
                                   however, they were not always followed. As a result, there
                                   may have been a lack of equity in the program in that all
                                   applicants9 may not have been held to the same standard
                                   and the best candidates may not have always been
                                   selected.



7
  A candidate is an Associate Supervisor Program applicant who has been accepted into the training
program, but has not yet graduated.
8
  A review committee is an advisory panel of members or their designees whose purpose is to screen and
interview applicants, and select candidates for the associate supervisor, executive and administrative
schedule level 15 position.
9
  An applicant is an individual who has applied for the Associate Supervisor Program but has not yet been
accepted.

                                                     7
                                          Restricted Information
Associate Supervisor Program                                                          LH-AR-02-005
 in the Great Lakes Area



                               The Associate Supervisor Program screening and selection
                               procedures required review committees to ensure that
                               internal applicants met suitability requirements in the
                               following areas:

                                  •    Supervisor evaluations
                                  •    Sick time/leave of absence
                                  •    Discipline
                                  •    Safety

                               We found, however, that in five of the seven districts we
                               reviewed, the committees deviated from the procedures
                               when they processed applications and selected candidates
                               for the program without having all of the information needed
                               to determine their suitability. For example, 102 of the
                               333 application packages we reviewed in these districts did
                               not contain information related to at least one of the
                               suitability requirements.

                               In addition, in three of the five districts, review committees
                               did not keep records to support the decisions they made,
                               including a register of eligible applicants and their scores.
                               We also found that district coordinators did not maintain
                               organized official candidate selection files making it difficult
                               to locate pertinent information.

                               The Associate Supervisor Program, Program Coordinator’s
                               Guide, assigned review committees the responsibility for
                               screening and interviewing applicants, and selecting
                               Associate Supervisor Program candidates. It further
                               required that the district coordinator ensure that suitability
                               information for each applicant was included in the
                               application package.

                               In response to questions about why procedures were not
                               followed, we found that review committee members and
                               district coordinators did not fully understand what their
                               responsibilities were. We also learned there was a high
                               turnover rate in the district coordinator position which may
                               have affected the continuity of how the program was
                               administered. For example, since the program’s inception
                               five of the seven districts changed their program




                                                 8
                                      Restricted Information
Associate Supervisor Program                                                       LH-AR-02-005
 in the Great Lakes Area



                               coordinators at least once. Further, district coordinators’
                               stated that their workload may have precluded them from
                               performing their Associate Supervisor Program
                               responsibilities, which was a collateral duty.

 Recommendation	               We recommend the vice president, Great Lakes Area
                               Operations:

                                   2.	 Ensure review committee members and district
                                       coordinators receive the appropriate training to
                                       increase their knowledge/awareness of their program
                                       responsibilities.

 Management’s                  Management agreed with the finding and recommendation.
 Comments                      They stated that each performance cluster will be required to
                               certify that all current review committee members have been
                               trained during the last year on the Associate Supervisor
                               Program selection and review committee procedures.
                               Additionally, they stated they would hold a meeting with
                               Associate Supervisor Program coordinators and their
                               training contacts to ensure they properly understand the
                               Associate Supervisor Program, and to determine
                               opportunities for improving the program. They said this
                               would occur by November 30, 2002.

 Evaluation of                 Management’s planned actions are responsive and meet the
 Management’s                  intent of our recommendation.
 Comments

 Recommendations                   3.	 Ensure the district coordinators implement oversight
                                       controls to ensure that review committee activities
                                       are conducted in accordance with program
                                       procedures.

                                   4.	 Determine the cause for the high turnover rate in the
                                       district coordinator position and take the appropriate
                                       actions to ensure continuity in program
                                       administration.

                                   5.	 Assess the workload of the district coordinators to
                                       ensure coordinators have sufficient time to perform
                                       their program responsibilities.




                                               9
                                    Restricted Information
Associate Supervisor Program                                                        LH-AR-02-005
 in the Great Lakes Area



 Management’s                  Management agreed with the findings and
 Comments                      recommendations. They stated that each performance
                               cluster will designate an executive and administrative
                               schedule level 17 or higher personnel services specialist
                               fully knowledgeable of selection and evaluation procedures
                               to chair the Associate Supervisor Program review
                               committees, and serve as a district coordinator. They stated
                               this would occur by November 30, 2002. Management also
                               stated that the delegation of this personnel services
                               specialist would also alleviate the turnover in the district
                               coordinator position that was previously handled on an ad
                               hoc basis and in addition to regular duties. They also stated
                               that the manager, Personnel Services would be in a much
                               better position to adjust the workload during the times that
                               the Associate Supervisor Program committee is functioning,
                               as opposed to the Operations managers, who had
                               previously held the oversight responsibility.

 Evaluation of                 Management’s planned actions are responsive and meet the
 Management’s                  intent of our recommendation.
 Comments

 Eligibility                   We found that the eligibility requirements used to select
 Requirements Applied          candidates for the Associate Supervisor Program were
 to All, Suitability           applied to both internal and external applicants. These
 Requirements Were             requirements included citizenship status and geographical
 Not                           area of consideration. In addition, the requirements were
                               fairly consistent with other Postal Service criteria regarding
 .                             the hiring and selection of employees. We found, however,
                               that some of the suitability requirements were applied to
                               internal applicants only. As a result, some internal
                               applicants were held to a higher standard and thus not
                               treated equitably when they were disqualified from the
                               program because of these requirements. For example, in
                               one district we found five internal applicants were
                               disqualified for not meeting one of the suitability
                               requirements, which were not applied to external
                               candidates. We believe this questions the equity of the
                               program.

                               The Employee and Labor Handbook (EL-312), Chapter 5,
                               Suitability, states that the suitability screening process must
                               be applied consistently to applicants who are likely to be
                               selected for all positions, regardless of the type of
                               appointment. It also states that suitability screening is an


                                              10
                                    Restricted Information
Associate Supervisor Program                                                        LH-AR-02-005
 in the Great Lakes Area


                               essential component of the hiring process for all applicants,
                               from all recruitment sources including former employees.

                               We found, however, that the Associate Supervisor Program,
                               Program Coordinator’s Guide and the Employee and Labor
                               Handbook (EL-312), Chapter 75, Associate Supervisor
                               Positions, did not require that the suitability requirements
                               used to assess internal applicants, also be used for external
                               applicants. One district official told us they had no reliable
                               method of obtaining some of the suitability information for
                               external applicants and, therefore, did not require it. A
                               headquarters official told us she did not believe it was unfair
                               to use different requirements for internal and external
                               applicants because they were balanced in their approach.
                               She believed background investigations and probationary
                               periods for external applicants achieved the same purpose
                               as the requirement from internal applicants for attendance,
                               safety, and disciplinary records.

                               We do not agree the internal and external suitability
                               requirements are equivalent because internal applicants
                               also receive a background investigation and meet a
                               probationary time period at the start of their employment.

 Recommendation                We recommend the vice president, Employee Resource
                               Management:

                                   6.	 Reassess the suitability requirements in the
                                       Associate Supervisor Program, Program
                                       Coordinator’s Guide and the Employee and Labor
                                       Handbook, (EL-312) Chapter 75, to ensure they are
                                       aligned with the Employee and Labor Handbook,
                                       (EL-312), Chapter 5, particularly as it relates to the
                                       requirement that suitability determinations must be
                                       consistently and fairly applied to all applicants.

 Management’s                  Management agreed with the finding and recommendation.
 Comments                      They stated they would review and align both manuals to
                               ensure their consistency and fair application to all
                               applicants. They stated the process would begin in
                               October 2002 and be completed by January 1, 2003.

                               Management disagreed with our conclusion and stated that
                               internal applicants were not at a disadvantage compared to
                               external applicants. They said that external applicants are
                               required to pass an extensive suitability investigation

                                              11
                                    Restricted Information
Associate Supervisor Program                                                                       LH-AR-02-005
 in the Great Lakes Area


                                       conducted by the Office of Personnel Management, and
                                       they believe this provides a comparable set of standards as
                                       those applied to the career workforce. In addition, they said
                                       external applicants must meet a 6-month probationary
                                       period in order to be retained and that during that period,
                                       supervisors observe the new employee’s behavior with the
                                       same Postal Service standard and expectancy that is
                                       applied to the career workforce.

 Evaluation of                         Management’s planned actions are responsive and meet the
 Management’s                          intent of our recommendation. However, we continue to
 Comments                              believe that internal and external suitability requirements are
                                       not equivalent because internal applicants also receive a
                                       background investigation and meet a probationary time
                                       period at the start of their employment.

 Placement of                          Great Lakes Area and district management had not
 Graduates Not                         determined the appropriate number of executive and
 Maximized                             administrative schedule level 15 positions needed; and had
                                       not placed all graduates when and where they were needed.
                                       As a result, the Postal Service may not be maximizing the
                                       opportunity for the program to improve labor-management
                                       relations and improve Postal Service operations. In
                                       addition, we found that promotions and selections of
                                       nongraduates to executive and administrative schedule
                                       level 16 positions resulted in missed opportunities for the
                                       Postal Service to realize a return on the training funds
                                       invested in the program and its graduates.

                                       We found a surplus of associate supervisor graduates in
                                       four districts, while associate supervisor vacancies existed in
                                       the remaining three districts. For example, as of June 2001,
                                       in the Chicago District, we found there were 42 more
                                       graduates than level 15 positions authorized. However, in
                                       the Detroit District there were 18 less graduates than
                                       positions authorized. (See Appendix B.) We also found that
                                       during the period December 199610 through June 2001,
                                       almost 40 percent (334) of the level 16 positions (857) were
                                       filled by promoting nongraduates, even though associate
                                       supervisor graduates were available to fill them. (See
                                       Appendix C.)




10
     This is the date of graduation for the first associate supervisors in the Great Lakes Area.

                                                        12
                                              Restricted Information
Associate Supervisor Program                                                                      LH-AR-02-005
 in the Great Lakes Area


                                 The Associate Supervisor Program, Program Coordinator’s
                                 Guide, required that a complement11 of executive and
                                 administrative schedule level 15 associate supervisor
                                 positions be available to place program graduates. The
                                 guide also provided that the number of level 15 positions
                                 should be based on the number of level 16 positions
                                 authorized in the Postal Service’s Organizational
                                 Management Staffing System.12 At the time of our audit, the
                                 guide also stated that promotions of level 15 associate
                                 supervisor graduates to level 16 supervisor positions, was
                                 not automatic.

                                 We found in two of the seven districts we reviewed, officials
                                 did not have the Organizational Management Staffing
                                 System reports needed to effectively monitor and plan for
                                 the placement and promotion of associate supervisors into
                                 level 15 and 16 vacancies. In another district, the reports
                                 were available, but were not always used; and in one other
                                 district, the reports were not current.

                                 We also found, that nongraduates were promoted to fill
                                 level 16 positions because: (1) graduates did not apply for
                                 the positions, and (2) managers were not required to select
                                 graduates that did apply, over nongraduates.

 Corrective Actions 	            During the course of our audit, Postal Service management
 Taken	                          took several actions to correct some of the conditions we
                                 found regarding the placement of program graduates.
                                 Specifically, in December 2001, the following changes were
                                 made to the Associate Supervisor Program:

                                      •	 Graduates were required to apply for executive
                                         and administrative schedule level 16 vacancies
                                         within 18 months after graduation or they would
                                         be automatically advanced to any open level
                                         16 vacancy, within the track for which they trained
                                         without competition.

                                      •	 Existing graduates who had not been promoted within
                                         18 months from September 8, 2001, would
                                         automatically be promoted into executive and
                                         administrative schedule level 16 positions.

11
   Associate Supervisor Program complements are the number of executive and administrative schedule
level 15 and 16 positions authorized.
12
   The Organizational Management Staffing System is a computerized Postal Service system that provides
information on authorized positions and incumbents.

                                                  13
                                        Restricted Information
Associate Supervisor Program                                                      LH-AR-02-005
 in the Great Lakes Area



                                  •	 Authorized executive and administrative schedule
                                     level 16 supervisory positions would be immediately
                                     filled.

                               We believe these program changes, if properly
                               implemented, should improve the Postal Service’s ability to
                               maximize the benefits of the Associate Supervisor Program
                               by placing graduates when and where they are needed.
                               These changes, however, do not address the need for
                               district and area management to adequately determine the
                               districts’ requirements for executive and administrative
                               schedule level 15 and 16 positions. In that regard, the
                               following recommendation is provided.

 Recommendation	               We recommend the vice president, Great Lakes Area
                               Operations:

                                   7.	 Ensure district management determine the
                                       appropriate number of executive and administrative
                                       schedule level 15 and 16 positions needed in their
                                       district, using current Organizational Management
                                       Staffing System reports.

 Management’s                  Management agreed with the finding and recommendation.
 Comment’s                     They stated that with the implementation of the Associate
                               Supervisor Program Universal Program there will be a direct
                               correlation between the number of Associate Supervisor
                               Program supervisors and supervisory vacancies. They also
                               stated that by November 30, 2002, they will use historical
                               supervisor attrition data and Organizational Management
                               Staffing System reports to forecast the number of
                               employees to enter into the Associate Supervisor Training
                               Program. They said this data will be used to ensure that the
                               Associate Supervisor Program supervisors are promoted
                               into existing vacancies within 18 months of their graduation.

 Evaluation of                 Management’s planned actions are responsive and meet the
 Management’s                  intent of our recommendation.
 Comments

 Program Cost Not              We could not determine the cost of the Associate Supervisor
 Determined                    Program in the Great Lakes Area because Postal Service
                               management at the district, area, and headquarters levels
                               did not have a budget nor did they track the cost for the
                               program.

                                              14
                                    Restricted Information
Associate Supervisor Program                                                                                 LH-AR-02-005
 in the Great Lakes Area



                                     Good business practices required the use of effective
                                     management controls. This included the use of sound
                                     methodologies for budgeting, recording, and reporting
                                     financial data about Postal Service programs and
                                     operations. In addition, two of the four phases of the Postal
                                     Service’s CustomerPerfect! Management Cycle,13 deploying
                                     resources and reviewing and assessing progress toward
                                     goals, required the use of budgeting and accounting and
                                     financial data, respectively.

                                     A headquarters, human resources official told us that a
                                     budget was not established and program costs were not
                                     recorded for the Associate Supervisor Program, because
                                     there was only one full-time headquarters position assigned
                                     to work on the program, and thus the costs were minimal so
                                     no cost center or finance number was needed. In addition,
                                     he said that the Associate Supervisor Program was a district
                                     effort, and the costs were incurred and paid for by the
                                     districts.

                                     Because the training program lasts for 16 weeks and
                                     instructors are Postal Service employees, we believe a
                                     significant amount of resources have been expended on this
                                     program without a proper and accurate accounting to
                                     determine the program costs. Accounting and financial
                                     information not properly recorded and classified can result in
                                     distorted reporting and unreliable data used to manage
                                     programs and operations. In addition, without an accurate
                                     reporting of the Associate Supervisor Program costs, Postal
                                     Service management cannot accurately identify areas for
                                     potential cost savings.

 Recommendation	                     We recommend the senior vice president, Human
                                     Resources:

                                          8.	 Establish a budget and cost center to capture the
                                              Associate Supervisor Program expenditures, Postal
                                              Service-wide.

 Management’s                        Management disagreed with the finding and
 Comments                            recommendation. They stated they did not believe it was
                                     practical to establish a budget and cost center for the

13
  The CustomerPerfect! Management Cycle of planning, implementation, and review consisted of
four distinct phases of activities intended to give direction to the organization and to build and sustain
improved performance against the goals that are set.

                                                      15
                                            Restricted Information
Associate Supervisor Program                                                                   LH-AR-02-005
 in the Great Lakes Area


                                Associate Supervisor Program on a national level because it
                                was not in line with other management training programs
                                developed by Postal Service Headquarters. They said the
                                costs incurred at the national level were primarily for training
                                and selection materials. They also said the program
                                administrative costs were included in the performance
                                cluster budget.

 Evaluation of                  Management’s planned actions are not responsive and do
 Management’s                   not meet the intent of our recommendation. As stated in our
 Comments                       report, accounting and financial information not properly
                                recorded and classified can result in distorted reporting and
                                unreliable data used to manage programs and operations.
                                In addition, without an accurate reporting of costs, Postal
                                Service management cannot accurately identify areas for
                                potential cost savings, which are important given the Postal
                                Service’s current financial condition.

                                In addition, we find management’s comments inconsistent
                                with their agreement to a similar recommendation made in
                                our report on the Postal Service’s Corporate Succession
                                Planning Process.14 Specifically, we found that Postal
                                Service Headquarters was unable to identify all the training
                                costs associated with the development of potential
                                successors. We recommended that management establish
                                a centralized system to monitor and analyze potential
                                training costs to determine, among other things, that overall
                                business goals were achieved. Management agreed with
                                the finding and recommendation in that report. The OIG
                                considers recommendation 8 as unresolved and plans to
                                pursue it through the formal audit resolution process.

 Program Oversight              Great Lakes Area management had not provided oversight
 Improvements Needed            that ensured the Associate Supervisor Program was
                                implemented efficiently, effectively, and properly in each of
                                its seven districts. We found, however, that area office
                                management had worked with area personnel to approve
                                district Associate Supervisor Program complements and
                                provided assistance and guidance to district coordinators in
                                program administration.

                                The Associate Supervisor Program, Program Coordinator's
                                Guide assigned oversight responsibility to the area program

14
  Postal Service’s Corporate Succession Planning Process, (Report Number LH-AR-02-004) (September 3,
2002).

                                                 16
                                       Restricted Information
Associate Supervisor Program                                                        LH-AR-02-005
 in the Great Lakes Area


                               coordinator for coordinating the program to ensure that the
                               program was implemented properly within each district in the
                               area. Area and headquarters officials told us, however, that
                               their interpretation of the guide was that district coordinators
                               were responsible for program oversight.

                               A misunderstanding about oversight may have contributed
                               to inconsistencies in district implementation of the program.
                               Specifically, as previously discussed, the districts differed in
                               their hiring procedures, establishment of applicant suitability
                               requirements, and processing of external and internal
                               applicants. For example, in four of the seven districts we
                               reviewed, Associate Supervisor Program officials did not use
                               the documentation required to fill executive and
                               administrative schedule level 16 positions by competitive
                               promotion. This documentation was needed to insure
                               accountability as it relates to the number of applicants that
                               applied and who they were. We also found that one district
                               established a unique suitability requirement that an applicant
                               should have a sick leave balance that equaled or exceeded
                               60 percent of what they earned during their Postal Service
                               career.

                               We believe oversight of Associate Supervisor Program
                               activities at the area level is necessary to help ensure that
                               management's directives are consistently carried out, and to
                               help identify and address major performance challenges in
                               areas at greatest risk for waste and mismanagement.

 Recommendation                We recommend the senior vice president, Human
                               Resources:

                                   9. Provide clarification to headquarters and area
                                      officials responsible for the Associate Supervisor
                                      Program, that oversight responsibility for district
                                      program activities is at the area level.

 Management’s                  Management agreed with the finding and recommendation.
 Comments                      They stated they agreed that the area office must have a
                               certain level of oversight responsibility for their districts.
                               They also stated they strongly believed that the
                               responsibility must be shared with performance cluster
                               management officials. A copy of management’s response to
                               the OIG, noting their agreement, was provided to both the
                               headquarters and area officials responsible for the program.


                                              17
                                    Restricted Information
Associate Supervisor Program                                                   LH-AR-02-005
 in the Great Lakes Area




 Evaluation of                 Management’s action was responsive and met the intent of
 Management’s                  our recommendation.
 Comments




                                             18
                                   Restricted Information
Associate Supervisor Program                                                   LH-AR-02-005
 in the Great Lakes Area



              APPENDIX A. SCOPE AND METHODOLOGY

This audit covered headquarters and area program operations, and operations in
the following seven district performance clusters in the Great Lakes Area:

    •   Central Illinois District, South Suburban, Illinois
    •   Chicago District, Chicago, Illinois
    •   Detroit District, Detroit, Michigan
    •   Greater Indiana District, Indianapolis, Indiana
    •   Greater Michigan District, Grand Rapids, Michigan
    •   Northern Illinois District, Carol Stream, Illinois
    •   Royal Oak District, Royal Oak, Michigan

To determine whether the Great Lakes Area management was assessing the
impact of the Associate Supervisor Program, we interviewed headquarters and
area office staffs and we documented the methodology and efforts they
employed to assess program impact and evaluate the program’s success. We
reviewed a FY 2001 survey of managers and program graduates that assessed
new associate supervisors’ skills. In addition, we reviewed GAO reports relevant
to the issues. We also identified Postal Service plans to evaluate the Associate
Supervisor Program; and reviewed the Postal Service’s Threat Assessment
Team Guide, Publication 108, to identify workplace climate indicators that could
also be used to assess workplace climate.

To understand the policies and procedures for implementing the Associate
Supervisor Program we reviewed the Associate Supervisor Program, Program
Coordinator’s Guide, August 1998. We also reviewed the Employment and
Placement Handbook, (EL-312), September 2001, Personnel Operations
Handbook (EL-311), April 1990, and GAO reports.

To determine how the Associate Supervisor Program was implemented and
managed, we interviewed Postal Service officials at headquarters in the
Selection, Evaluation and Recognition office and Employee Development office,
as well as area office officials, the district human resources managers, and the
district office managers. We obtained the roles and responsibilities of these
officials and their staff. We reviewed the Associate Supervisor Program process
beginning with the time applications were received by the Postal Service, until
the graduates were placed after successfully completing the program. We
compiled data on the number of applicants, dropouts, and graduates, and the
number of graduates promoted since graduation. We also reviewed the area and
districts’ adherence to Associate Supervisors Program guidelines for screening,
testing, interviewing, rating, and placement of applicants on eligibility registers.
We compared the procedures used by the area and districts to process
graduates, to the procedures described in the program guide. We used the
period January 2000 through June 2001 because major program changes in

                                          19
                                Restricted Information
Associate Supervisor Program                                                     LH-AR-02-005
 in the Great Lakes Area


policies and procedures went into effect in January 2000, and our fieldwork
started July 2001. For this period, we reviewed all 366 Associate Supervisor
Program applications for those who graduated after the January 2000 changes
were implemented.

To determine the objectivity of the applicant selection criteria and consistency of
its application we reviewed the applications for all 366 graduates from
January 2000 through June 2001 and tested the degree of compliance with
program eligibility and suitability requirements for internal and external applicants
as outlined in the Associate Supervisors Program, Program Coordinator’s Guide,
the Personnel Operations Handbook, (EL-311) and, the Employee and Labor
Handbook, (EL-312). In addition, to identify applicants who were disqualified
because they did not meet suitability requirements, we reviewed the structured
interview list of ratings for class one in the Detroit District.

To determine whether the Postal Service was maximizing the benefits of the
Associate Supervisor Program through its placement of graduates, we identified
the locations where Associate Supervisor Program graduates were assigned and
reviewed Postal Service Organizational Management Staffing System reports
identifying the number of graduates authorized to meet the needs of the
organization. We then compared the number of Associate Supervisor Program
graduates assigned, to the number of associated supervisor authorized positions.
We also compared the number of executive and administrative schedule level 16
vacancies in the districts to the number of associate supervisor graduates
assigned and authorized. Finally, we compared the number of executive and
administrative schedule level 16 vacancies to the number of Associate
Supervisor Program graduates at the same district. We used the period
beginning with the month of the first graduates in December 1996 through
June 2001, and selected and tracked the movement of all (915) graduates for
that period, from the time they applied for the vacancy and were selected,
through training, job placement after graduation, and subsequent promotions,
when applicable.

To determine the costs of the Associate Supervisor Program we interviewed
senior-level headquarters and district office officials responsible for
administration of the associate supervisor program and requested budget and
expenditure reports for the program. We determined there were no records of
expenditures and that budgets had not been established for the Associate
Supervisor Program. We also determined there were no finance or accounting
codes used to capture program costs by account or cost center. Due to the
absence of accounting records and other official documentation to support
expenditures for the program, we were unable to determine the cost of the
program.




                                           20
                                 Restricted Information
Associate Supervisor Program                                            LH-AR-02-005
 in the Great Lakes Area


                                 APPENDIX B

     COMPARISON OF THE NUMBER OF EXECUTIVE AND 

     ADMINISTRATIVE SCHEDULE LEVEL 15 AUTHORIZED 

   POSITIONS TO THE NUMBER OF ASSOCIATE SUPERVISOR 

                       GRADUATES

                     AS OF JUNE 2001



                                Executive and Administrative Schedule
                                          Level 15 Positions
                                                             Number of
                               Number of       Number      Graduates That
                               Authorized     Graduated      Exceeded
            District           Positions     (On Payroll)     Positions
    Central Illinois                 49              54               5
    Chicago                          61             103              42
    Detroit                          49              31             -18
    Greater Indiana                  25              32               7
    Greater Michigan                 22              20              -2
    Northern Illinois                56              40             -16
    Royal Oak                        32              34               2
     Totals                        294              314              20




                                          21
                                Restricted Information
Associate Supervisor Program                                           LH-AR-02-005
 in the Great Lakes Area


                                  APPENDIX C

       COMPARISION OF NONGRADUATE AND GRADUATE
       PROMOTIONS TO EXECUTIVE AND ADMINISTRATIVE
              SCHEDULE LEVEL 16 POSITIONS
           DECEMBER 1996 THROUGH JUNE 2001


                                                                 Total
                                                               Number of
                          Promotions                            Program
                          to Level 16 Nongraduates Graduates   Graduates
        District          Supervisor   Promoted    Promoted    Available
  Central Illinois            121           16        105         166
  Chicago                      96           52         44         188
  Detroit                      92            1         91         138
  Greater Indiana              99           30         69         105
  Greater Michigan             83           51         32          80
  Northern Illinois           150           22        128         130
  Royal Oak                   216          162         54         108
   Totals                     857          334        523         915




                                           22
                                 Restricted Information
Associate Supervisor Program                            LH-AR-02-005
 in the Great Lakes Area


              APPENDIX D. MANAGEMENT’S COMMENTS




                                         23
                               Restricted Information
Associate Supervisor Program                            LH-AR-02-005
 in the Great Lakes Area




                                         24
                               Restricted Information
Associate Supervisor Program                            LH-AR-02-005
 in the Great Lakes Area




                                         25
                               Restricted Information
Associate Supervisor Program                            LH-AR-02-005
 in the Great Lakes Area




                                         26
                               Restricted Information
